The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436




November 12, 2013                                                           IG-LL-018

Chairman Williamson:


This memorandum transmits the Office of Inspector General’s final report, Audit of the
Commission’s Patching Process, OIG-AR-14-02. This audit focused on whether the
Commission’s process for patching systems was effective.

In finalizing this report, we analyzed management’s comments to our draft report and
have included those comments in their entirety as Appendix A. This audit determined that
the patching process was not effective and identified three problem areas.

This report presents seven recommendations to address the problem areas. In the next 30
days, please provide me with your management decisions describing the specific actions
that you will take to implement each recommendation.

Thank you for the courtesies extended to the auditors during this review.




Philip M. Heneghan
Inspector General
                                U.S. International Trade Commission
                                                        Audit Report

                                                   Table of Contents

Results of Audit............................................................................................. 1

Problem Areas............................................................................................... 3
   Problem Area 1: The Commission Did Not Measure Half of its Hosts for Missing
   Patches ............................................................................................................................ 3

   Problem Area 2: The Commission Did Not Apply Patches in a Timely Manner ........ 4

   Problem Area 3: The Risk from Missing Patches Was Not Effectively Reported ....... 6

Management Comments and Our Analysis ............................................... 7

Objective, Scope and Methodology............................................................. 7
Appendix A: Management Comments on Draft Report.......................... 1

Tables and Charts
   Table 1: Scanning Results of Hosts ............................................................................... 2
   Table 2: Average Age of Vulnerabilities ....................................................................... 2

   Chart 1: Number of High Severity Vulnerabilities Classified by Days Since Patch
   Release ........................................................................................................................... 5




                                                                 -i-
                      U.S. International Trade Commission
                                      Audit Report


                                  Results of Audit
The purpose of this audit was to answer the question:

       Is the Commission’s process for patching ITCNet systems effective?

No. The Commission’s process for patching ITCNet systems was not effective.

In order to effectively patch its systems, the Commission’s process should measure all of
its systems for missing patches, rapidly apply missing patches, and inform executive
management with a complete and accurate status.

Systems can include physical or virtual servers, laptops, desktops, tablets, printers,
network switches, and other types of devices. When they are connected to the
Commission’s network, each of these systems has at least one IP address, and each
detected IP address is referred to as a “host.”

The process was not effective because 49% of detected hosts were not evaluated for
missing patches, patches for High severity vulnerabilities were not applied in a timely
manner, and the risk from missing patches was not effectively reported.

When software vendors identify problems with their applications or operating systems,
they create and release updates to the software to resolves these issues. These updates are
known as ‘patches.’ These patches are made available to the public, who install these
patches to rectify the problems they are intended to solve. According to the CIO,
145,005 patches were applied to Commission workstations between January and August
this year.

The majority of patches being released are designed to correct newly-identified security
flaws. Systems without these patches are vulnerable to exploits from these security flaws,
which could result in an intrusion by malicious individuals. Vulnerabilities defined as
High severity identify those with the highest risk to the systems in question. Once a patch
is released, the risk increases for systems that remain unpatched, because it has been
publically announced that a flaw is present, and the software patch can be analyzed to
precisely identify the nature of the security flaw. Malicious parties use this information to
create new exploits if they aren’t already available.

Patching systems is a primary means of securing systems and there are no effective
substitutes for this basic security measure. In order to manage and reduce the risk to the
organization, those responsible for managing its systems must continually track the
patched status of those systems, and deploy patches as soon as they are made available. If
systems are allowed to remain unpatched, the ease with which they can be attacked can
nullify all other security measures in place at the organization.



OIG-AR-14-02                                -1-
                     U.S. International Trade Commission
                                     Audit Report


In our analysis of the data provided by the OCIO, we found that 49% of detected hosts
had not been scanned for missing patches. The table below describes two distinct sets of
data for two different scanning weeks, one during the week of July 14th, and the other the
week of August 4th. The number of hosts detected is subdivided into those fully
measured for missing patches, and those that were not. For those that were measured, we
provide an average number of High severity vulnerabilities per host.

                           Table 1: Scanning Results of Hosts

                                                  Week of          Week of
                Description                                                    Average
                                                  July 14          August 4
Hosts Detected                                        867             847          857
 Hosts not measured                                  407             431           419
   - Hosts with no scan attempted                      5               6           5.5
   - Hosts with scan errors                          402             425          413.5
Hosts Measured                                        460             416          438
   - Hosts Missing High severity patches             451             406          428.5
   - Hosts Missing no High severity patch              9              10           9.5
Vulnerabilities Due to Missing Patches               6152            2708         4430

Average High Severity Vulnerabilities Per
                                                     13.4            6.5           9.95
Host

For the hosts that were measured and found to be missing High severity patches, virtually
all patches missing were more than a week old, and 21% of them were more than 1 year
old. The average age of vulnerabilities due to missing patches is seen in the table below:

                        Table 2: Average Age of Vulnerabilities

     Age of Missing Patches                 Percentage of Vulnerabilities
           Less than 7 days                                 0.3%
               7-13 days                                    32.3%
              14-90 days                                    28.3%
             90-365 days                                    18.1%
         More than 365 days                                 20.9%




OIG-AR-14-02                               -2-
                      U.S. International Trade Commission
                                      Audit Report


The risk facing the Commission due to missing patches was not effectively reported. The
Commission uses a formula that results in a target index score of 5, which implies that
any number less than 5 indicates a secure network. Because the target score, or upper
limit, is the log of a number, the target number is actually 100,000.

In our review of the two sets of the CIO’s scan data, we found that on average, 438 hosts
were scanned for missing patches. This means that an average, per-host passing score
would be any number less than 228 (100,000/438). Since a score of 7 or more is a High
vulnerability, the implication is that the Commission finds it acceptable to have 33
(228/7=33) High severity vulnerabilities per host.

The current method of reporting provides the Commission with a false sense of security
and the stated goal would allow the risk to rise even more without the Commission
becoming aware of an increased risk.

The three problem areas: (1) half of detected hosts were not evaluated for missing
patches, (2) patches for High severity vulnerabilities were not applied in a timely fashion,
and (3) risk due to missing patches was not effectively reported, are detailed below.



                                   Problem Areas

                                      Problem Area 1:

      The Commission Did Not Measure Half of its Hosts for Missing Patches


An effective vulnerability management program requires knowing the patch status of all
hosts. This is usually done by scanning the network and checking the patch status of
each host on the network. It is not possible to effectively manage the patching process
without a comprehensive measurement of status.

We reviewed two sets of data from scans performed the week of July 14th, and August
8th. We found that an average of 857 hosts were detected by the two sets of scans, but an
average of 419 (49%) were not successfully measured for missing patches.

An overall contributing factor is that the Commission has self-imposed complexity by
creating a single network with over 65,000 addresses, which is not a best practice. The
decision to configure and maintain the network in this way has a number of negative
consequences, one of which is that the network space is simply too large to be scanned on
a frequent basis for missing patches. This resulted in a situation where not all hosts were
being measured for missing patches on a continuous basis.


OIG-AR-14-02                                -3-
                      U.S. International Trade Commission
                                      Audit Report


In order to detect missing patches, the scans must be configured to use login credentials
to connect to each host and gather an inventory of installed software. If the credentials
aren’t provided, or if for some reason they fail, then the host will not be scanned for
missing patches. The scanning software provided several indicators of this failure to
scan for missing patches, including:

1.     (51%) The local checks failed because the account used did not have sufficient
       privileges to read all the required registry entries.
2.     (30%) It was not possible to connect to PIPE\winreg on the remote host. If the
       scanning software is going to be used to perform registry-based checks, the
       registry checks will not work because the 'Remote Registry Access' service
       (winreg) has been disabled on the remote host or cannot be connected to with the
       supplied credentials.
3.     (19%) Other. Either some other error occurred, or the use of credentials was not
       attempted.

When scans cannot measure for missing patches, the hosts may appear clean; as if they
have no vulnerabilities (are not missing patches). This leads to a false sense of security.
The effect is that until these issues are identified and resolved, the Commission cannot
know the risk to its network.

Recommendation 1: That the CIO shrink the network to facilitate at least weekly patch
scanning of all hosts.

Recommendation 2: That the CIO implement alerts to identify all hosts that fail the
patch measurement process.

Recommendation 3: That the CIO establish a system-build process that guarantees
scanner access by default.



                                       Problem Area 2:

             The Commission Did Not Apply Patches in a Timely Manner

Due to the risk they pose to the network, patches for High severity vulnerabilities should
begin to be applied upon patch release. For the purpose of this audit, we rated
performance only for the application of released patches addressing High severity
vulnerabilities. We did not measure vulnerabilities without a released patch, or any Low
or Medium vulnerabilities.



OIG-AR-14-02                                -4-
                     U.S. International Trade Commission
                                      Audit Report


When a vulnerability is publicly acknowledged, each is assigned a risk rating using the
Common Vulnerability Scoring System (CVSS). The CVSS score is an industry standard
that describes the risk of a specific vulnerability. A CVSS score over 7 indicates a High
risk vulnerability. (Scores below 7 indicate Low to Medium-level vulnerabilities)

We found that on average, 2.2% of 438 hosts measured were clean or fully patched. The
remaining 97.8% of hosts measured required patches to resolve High severity
vulnerabilities.

Many of the missing patches were weeks, months, or years old. Even the anticipated,
regularly scheduled monthly Microsoft patches (indicated by the large peak in the 7-13
days section below) were applied when they were more than a week old.

   Chart 1: Number of High Severity Vulnerabilities Classified by Days Since Patch
                                     Release

                    Number of High Severity Vulnerabilities
                     Classified by Days Since Patch Release
 3000


 2500


 2000


 1500


 1000


  500


    0
         < 7 days   7-13 days   14-20 days    21-29 days   31-90 days   90-365 days   >365 days

                                 Week of July 14    Week of Aug 4




This chart also shows that many patches older than 30 days are allowed to persist on the
network, in many cases, for years.




OIG-AR-14-02                                 -5-
                     U.S. International Trade Commission
                                     Audit Report


These practices place the Commission at risk. There may be a few circumstances when a
decision is made not to patch. However, the number of hosts that remain unpatched
should be minimized, and the length of time the vulnerabilities persist should be limited.

In one example, the Commission has decided to allow many hosts to remain unpatched to
maintain compatibility with a financial system. All of these hosts are at risk, and
therefore place the rest of the network at risk. The Commission could choose to
minimize the risk theses hosts and its network by fully patching these hosts, and use its
existing technology to provide a secure, seamless means of accessing the financial system
while maintaining the security of its hosts. It has chosen not to do so, instead leaving
these hosts, and therefore the entire network, vulnerable for years.

Recommendation 4: That the Commission patch all High severity application and
operating system software vulnerabilities within 48 hours of patch release.

Recommendation 5: That the CIO identify any business needs that require the use of
unpatched software and restrict access to a secured thin-client application or other
solution that allows user workstations to be fully patched.




                                      Problem Area 3:

            The Risk from Missing Patches Was Not Effectively Reported


Patch management reporting is an essential part of the process to quantify the risk for
executive management in an easily digestible fashion, so they are able to make informed
decisions to manage that risk.

The Commission has published a performance metric, which it calls the Enterprise
Vulnerability Index. It uses a complicated formula and describes as its goal any number
less than 5. Since only an average of 438 hosts were measured for missing patches, the
current metric implies that as long as it doesn’t exceed 33 High severity vulnerabilities
per host, the Commission will meet its target performance goal to ensure network
security.

In previous OIG audits, in order to convey the magnitude of the risk due to missing
patches, we have reported on the number of High severity vulnerabilities per host.
Another measure sometimes used is to report on the average CVSS score per host. Other
than what the Commission has published, we were unable to find any instances where an
organization used the log of a sum to describe the security of a network.




OIG-AR-14-02                               -6-
                     U.S. International Trade Commission
                                     Audit Report


The Commission’s metric conveys the message to executive management that the
Commission has effectively ensured network security. This provides the Commission
with a false sense of security, and does not provide actionable information to business
owners regarding the risk to the network due to missing patches.

Recommendation 6: That the CIO report on the average number of High severity
vulnerabilities per host, or average CVSS score per host, or another score that provides a
metric on a per host basis.

Recommendation 7: That the Commission set a goal for missing patches at a number
that provides an acceptable level of risk to the Commission.




              Management Comments and Our Analysis

On November 5, 2013, Chairman Irving Williamson provided management comments on
the draft report. He acknowledged that the Commission did not have an effective process
for patching and agreed to make management decisions to address the recommendations
in the report.



                    Objective, Scope and Methodology
Objective:

Is the Commission’s process for patching ITCNet systems effective?

Scope:
This audit focused on the process for patching systems on ITCNet. To determine the
patch-related vulnerability status, we analyzed two sets of scanning data provided by the
CIO for the weeks of July 14 and August 8, 2013. This data included all hosts detected
as part of the CIO vulnerability management process on the network ranges scanned,
including servers, workstations, virtual hosts, and other network equipment providing
connectivity and security.




OIG-AR-14-02                               -7-
                    U.S. International Trade Commission
                                    Audit Report


Methodology:

   1. Evaluated the risk approach used by the CIO to assess vulnerabilities.
   2. We did not scan the network to evaluate patch status, but instead gathered
      existing vulnerability data from CIO.
   3. Identified hosts that were not scanned due to technical or policy issues.
   4. Analyzed vulnerabilities to remove false positives, and classified findings to
      identify trends and the causes of unpatched vulnerabilities.
   5. Determined whether patching process was guided by reasonable risk based
      decisions.
   6. Determined whether patch status was being accurately measured.
   7. Determined whether patch status was reported to executive management.
   8. Determined whether patches were applied in a timely fashion.




OIG-AR-14-02                             -8-
               U.S. International Trade Commission
                           Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-14-02                  -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
